U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 14, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Christopher Williams v. United States of America,
S.Ct. No. 20-7798

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 16,
2021, and placed on the docket on April 20, 2021. The government’s response is due on May
20, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 21, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7798
WILLIAMS, CHRISTOPHER
USA

BECKY KURZ
FEDERAL PUBLIC DEFENDER OFFICE
1000 WALNUT
STE. 600
KANSAS CITY, MO 4106
816-471-8282
BECKY_KURZ@FD.ORG

